Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  SOUTH FLORIDA SUPPLIERS’

 COMPLIANCE WITH MEDICARE 

 STANDARDS: RESULTS FROM 

    UNANNOUNCED VISITS 





                    Daniel R. Levinson

                     Inspector General 


                       March 2007

                     OEI-03-07-00150

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                     S U M M A R Y                                                



                  OBJECTIVE
                  To conduct unannounced site visits of suppliers of Medicare durable
                  medical equipment, prosthetics, orthotics, and supplies (DMEPOS) in
                  three South Florida counties (Miami-Dade, Broward, and Palm Beach)
                  to determine their compliance with selected Medicare supplier
                  standards.


                  BACKGROUND
                  The Centers for Medicare & Medicaid Services (CMS) reported that
                  payments for DMEPOS reached $10 billion in fiscal year 2005.
                  DMEPOS are covered under Medicare Part B and include items such as
                  hospital beds, wheelchairs, respirators, walkers, and artificial limbs.
                  DMEPOS suppliers must enroll in the Medicare program to sell or rent
                  medical equipment and supplies to Medicare beneficiaries and to submit
                  claims for Medicare reimbursement. At the time of our review,
                  DMEPOS suppliers had to comply with 21 Medicare DMEPOS supplier
                  standards to enroll in the Medicare program.

                  CMS contracts with the National Supplier Clearinghouse (NSC) to
                  manage the enrollment of suppliers in the Medicare program.
                  According to NSC supplier enrollment data, Miami-Dade County has
                  the highest concentration of suppliers per Medicare beneficiary of any
                  county in the nation. Broward and Palm Beach Counties also have high
                  concentrations of suppliers. As a result of allegations in Miami-Dade
                  and Broward Counties, NSC reported that, during the last two quarters
                  of 2005, Florida led the nation for allegations of supplier noncompliance
                  with Medicare standards. We undertook a review of the suppliers in
                  three South Florida counties to assess their compliance with Medicare
                  supplier standards.

                  We focused on three supplier standards that could be verified quickly
                  through direct observation and desk review. These three standards
                  include five specific requirements, which state that suppliers must:
                  (1) maintain a physical facility, (2) be accessible (open and staffed)
                  during business hours, (3) have a visible sign, (4) have hours of
                  operation posted, and (5) maintain a primary business telephone listed
                  under the name of the business. We conducted unannounced site visits
                  in late 2006 to determine whether 1,581 DMEPOS suppliers in
                  Miami-Dade, Broward, and Palm Beach Counties were in compliance
                  with these 5 requirements.


OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   i
E X E C U T I V E                        S U           M M A R Y 




                   FINDINGS
                   Thirty-one percent of suppliers in three South Florida counties did
                   not maintain a physical facility or were not open and staffed during
                   unannounced site visits. A total of 491 of 1,581 suppliers (31 percent)
                   failed to maintain a physical facility or were not open and staffed during
                   our unannounced site visits. Suppliers located in Miami-Dade County
                   represented 64 percent of the suppliers we visited, but accounted for
                   80 percent of suppliers that did not maintain physical facilities or were
                   not accessible during business hours.

                   Six percent of the suppliers we visited (98 of 1,581) did not maintain
                   physical facilities. Instead of finding operational facilities, site reviewers
                   found vacant facilities or facilities in which another type of business was
                   operating.

                   An additional 25 percent of suppliers (393 of 1,581) were not accessible
                   during reasonable business hours. Of these suppliers, 385 were closed
                   during unannounced site visits on a minimum of 2 weekdays during
                   reasonable or posted business hours. Eight suppliers were open but
                   not staffed during a minimum of two unannounced site visits. These
                   suppliers’ doors were unlocked, but site reviewers saw no one in the
                   facilities.
                   Another 14 percent of suppliers were open and staffed but did not
                   meet at least one of three additional requirements for the standards
                   we reviewed. Fourteen percent of suppliers (216 of 1,581) were open
                   and staffed but did not meet at least 1 of the 3 remaining requirements
                   we reviewed (having posted hours of operation, a visible sign, and a
                   listed telephone number). Two hundred and six of these suppliers did
                   not comply with 1 of these requirements and 10 suppliers did not
                   comply with 2 or more of these requirements.

                   The remaining 55 percent of suppliers we visited met all of the
                   5 requirements included in our review.


                   RECOMMENDATION
                   Based on unannounced site visits to 1,581 Medicare DMEPOS suppliers
                   in 3 counties in South Florida, we identified 491 suppliers (31 percent)
                   that did not maintain physical facilities or were not accessible during
                   reasonable business hours. We referred these suppliers to CMS so that
                   it could consider potential revocation of the suppliers’ Medicare billing
                   numbers. Another 216 suppliers (14 percent) were open and staffed but


 OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   ii
E X E C U T I V E                        S U           M M A R Y


                   failed to meet at least 1 of the other 3 requirements included in our
                   review.

                   Because nearly half of the suppliers we visited were not in compliance
                   with the Medicare supplier standards we reviewed, our findings
                   warrant further attention by CMS to protect the integrity of the
                   Medicare DMEPOS benefit. Therefore, we recommend that CMS:
                   Strengthen the Medicare DMEPOS Supplier Enrollment Process and
                   Ensure That Suppliers Meet Medicare Supplier Standards
                   Options to implement this recommendation could include:

                        •	 conducting more unannounced site visits to suppliers;

                        •	 implementing an enhanced review of all new enrollment
                               applications by DMEPOS suppliers in South Florida;
                        •	 prioritizing processing reenrollment applications for current
                               suppliers over processing new supplier applications;
                        •	 performing more rigorous background checks of applicants;

                        •	 assessing the fraud risk of suppliers and targeting monitoring and
                               enforcement on high-risk suppliers;
                        •	 increasing prepayment review of DMEPOS claims;

                        •	 requiring all DMEPOS suppliers to post a surety bond;

                        •	 implementing a competitive bidding acquisition program for
                               DMEPOS within high-vulnerability areas; if a competitive bidding
                               program is implemented in these areas, the number of suppliers
                               should be limited to those that demonstrate compliance with
                               Medicare standards and that can provide the best value to the
                               Medicare program and its beneficiaries;
                        •	 requiring suppliers in areas particularly vulnerable to fraud and
                               abuse to reenroll with NSC more frequently than every 3 years;
                        •	 strengthening the Medicare supplier standards by establishing a
                               minimum number of hours of operation required for each supplier
                               and establishing minimum inventory requirements for product
                               and service types provided by a supplier; and
                        •	 deactivating the Medicare billing numbers of DMEPOS suppliers
                               that have been inactive for a 90-day period.




 OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   iii
E X E C U T I V E                        S U           M M A R Y 




                   AGENCY COMMENTS
                   CMS agreed with or will consider the options we recommended for
                   strengthening the Medicare DMEPOS supplier enrollment process and
                   ensuring that suppliers meet Medicare supplier standards. CMS noted
                   that it is taking several steps to strengthen DMEPOS supplier
                   standards. Some of these steps include requiring suppliers to become
                   accredited, drafting a proposed regulation requiring suppliers to post
                   surety bonds, revisiting NSC contract requirements to increase
                   unannounced supplier site visits, and developing a proposal to revise
                   deactivation requirements for inactive Medicare billing numbers. CMS
                   stated that it appreciated working collaboratively with NSC and the
                   Office of Inspector General (OIG) to conduct unannounced site visits in
                   South Florida to determine compliance with Medicare supplier
                   enrollment standards. CMS noted that the data collection protocol used
                   for the South Florida supplier site visits was valuable, but provided less
                   information than the NSC-established site visit protocol to support
                   supplier number revocation decisions when suppliers submit appeals.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   Previous work conducted by OIG has demonstrated that the Medicare
                   DMEPOS benefit is highly vulnerable to fraud and abuse. These
                   vulnerabilities can only be reduced by ensuring that Medicare does
                   business with legitimate DMEPOS suppliers.

                   The findings of this review detail the business practices of more than
                   1,500 DMEPOS suppliers that were the subject of our review during
                   visits to suppliers. We found that 45 percent of the suppliers we visited
                   did not meet at least one of the five requirements that we reviewed,
                   raising substantial concerns as to whether DMEPOS suppliers in South
                   Florida are in compliance with the most basic of supplier standards.

                   As CMS states in its comments, we worked closely with CMS and NSC
                   staff in developing the protocol for this study. This joint effort allowed
                   for unannounced site visits to a large population of DMEPOS suppliers
                   during a several week period. Visiting a large number of suppliers
                   without forewarning in a short period of time was crucial to ensuring
                   that suppliers were not alerted to our efforts.

                   Given the overwhelming evidence of noncompliance with supplier
                   standards in South Florida, it is essential that our recommendations be
                   promptly implemented to ensure the integrity of the Medicare program
                   and to protect beneficiaries from potentially unscrupulous suppliers.

 OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   iv
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8 

                   Thirty-one percent of suppliers did not maintain physical facilities 

                   or were not accessible during unannounced visits. . . . . . . . . . . . . . 8 


                   Another 14 percent of suppliers failed to meet at least one of

                   three additional requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                   Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                   Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 11 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   A: 	Medicare DMEPOS Supplier Standards . . . . . . . . . . . . . . . . . 13 


                   B: 	Primary Specialty Types for Suppliers Visited in 

                       South Florida . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                   C: 	County Locations for Suppliers Visited in South Florida . . . . 17 


                   D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

Δ   I N T R O D U C T I O N                                                      



                  OBJECTIVE
                  To conduct unannounced site visits of suppliers of Medicare durable
                  medical equipment, prosthetics, orthotics, and supplies (DMEPOS) in
                  three South Florida counties (Miami-Dade, Broward, and Palm Beach)
                  to determine their compliance with selected Medicare supplier
                  standards.


                  BACKGROUND
                  The Centers for Medicare & Medicaid Services (CMS) reported that
                  Medicare payments for DMEPOS reached $10 billion in fiscal year 2005.
                  DMEPOS are covered under Medicare Part B and include items such as
                  hospital beds, wheelchairs, respirators, walkers, and artificial limbs.1
                  Medicare pays for DMEPOS that are necessary and reasonable for the
                  treatment of a beneficiary’s illness or injury, or to improve the
                  functioning of a malformed body member. Medicare only covers medical
                  equipment when it is ordered for a beneficiary by a physician or in some
                  cases a nonphysician practitioner.
                  Medicare Enrollment of DMEPOS Suppliers
                  CMS contracts with the National Supplier Clearinghouse (NSC),
                  operated by Palmetto Government Benefits Administrators, to manage
                  the enrollment of suppliers. Suppliers must complete applications and
                  comply with 21 Medicare DMEPOS supplier standards to enroll in the
                  program.2 CMS requires DMEPOS suppliers to comply with these
                  supplier standards to ensure that only qualified suppliers are enrolled
                  in the Medicare program. A supplier must report to CMS any changes
                  in the information provided in the application (including change of
                  address) within 30 days of the change.

                  If DMEPOS suppliers operate businesses at multiple physical locations,
                  they are required to apply for a different Medicare billing number for
                  each location.



                      1 Social Security Act, §§ 1832, 1861.
                      2 42 CFR § 424.57(c). This citation refers to 25 supplier standards because 4 additional

                  supplier standards were added by Federal Register notice dated August 18, 2006. The
                  additional supplier standards relate to accreditation of suppliers and are provided in
                  Appendix A. However, CMS has not set a deadline for DMEPOS suppliers to become
                  accredited in order to retain/obtain a billing number. At the time of this review, suppliers
                  needed to comply with only 21 standards to enroll in the Medicare program.



OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   1
I N T R O D        U C T             I O N


                    Standards. Federal regulations state that DMEPOS suppliers must
                    meet the Medicare DMEPOS supplier standards to receive payment for
                    a Medicare-covered item. If a supplier fails to comply with all
                    standards, CMS may revoke the supplier’s billing privileges (42 CFR
                    § 424.57(d)). Appendix A contains a complete list of the Medicare
                    standards.

                    Application. DMEPOS applicants must complete the Medicare
                    enrollment application (Form CMS-855S) to be considered for
                    enrollment. Before the application can be completed, however, new
                    applicants must first obtain their National Provider Identifier (NPI), a
                    unique identifier for health care providers that is assigned by the
                    National Plan and Provider Enumeration System. Only after obtaining
                    this NPI can applicants submit Form CMS-855S and supporting
                    documents to NSC.3
                    Site visit. NSC must conduct a site visit to verify that a DMEPOS
                    supplier applicant complies with the 21 Medicare supplier standards
                    before approving an applicant and assigning a Medicare billing
                    number.4 NSC or its contractor conducts unannounced site visits while
                    the application is being processed.5 During these site visits, inspectors
                    complete a questionnaire based on the standards. In addition to this
                    questionnaire, site inspectors review files, request copies of required
                    licenses, and document the supplier’s inventory. Generally, if the
                    supplier is not in compliance, NSC denies the application. However, if
                    the deficiency is very minor, NSC educates the provider about the
                    required change(s) rather than denying the application. After the
                    initial enrollment site visit, suppliers are generally not visited by NSC
                    inspectors until they are due for reenrollment every 3 years.




                       3 Supporting documents include, but are not limited to, copies of Federal, State, and/or

                    local professional and business licenses, certifications, and/or registrations; liability
                    insurance policies; written confirmation from IRS confirming Tax Identification Number;
                    completed Authorization Agreement for Electronic Funds Transfer (Form CMS-588); and
                    NPI notification.
                        4 Available online at:

                    http://www.palmettogba.com/palmetto/providers.nsf/44197232fa85168985257196006939dd/
                    85256d580043e75485256fe20049923e?OpenDocument. Accessed on October 19, 2006.
                       5 In South Florida, two inspectors from the NSC Supplier Audit and Compliance Unit
                    conduct all the site visits. The processing time for initial enrollment of a DMEPOS supplier
                    is approximately 60 days.




 OEI-03-07-00150    S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   2
I N T R O D        U C T             I O N


                    Reenrollment. DMEPOS suppliers are required to reenroll in the
                    Medicare program every 3 years to continue receiving Medicare
                    reimbursement (42 CFR § 424.57 (e)). Prior to their reenrollment date,
                    suppliers receive a reenrollment package from NSC. Suppliers have
                    35 days from the date on the reenrollment letter to submit the
                    completed CMS-855S and required documentation. A one-time
                    extension can be requested by suppliers; however, suppliers failing to
                    reenroll within the given timeframe are subject to deactivation of their
                    Medicare billing number. NSC conducts an unannounced reenrollment
                    site visit to ensure that a supplier continues to meet Medicare
                    standards. Generally, if the supplier is not in compliance during the
                    reenrollment visit, NSC issues a revocation notice. However, if the
                    deficiency is very minor, NSC educates the provider about the required
                    change(s) rather than issuing a revocation notice.

                    Appeals Process. When NSC denies or revokes a supplier’s billing
                    number, the supplier has two options to contest the determination: the
                    supplier may submit a corrective action plan (CAP) or request a
                    hearing. CMS and NSC negotiate the terms of the CAP with the
                    supplier to ensure that the supplier complies with current supplier
                    standards. If CMS and NSC are satisfied that issues of noncompliance
                    have been resolved, the supplier’s billing number may be reissued or
                    reinstated. If CMS and NSC uphold the denial or revocation, the
                    supplier may request a formal hearing before a Hearing Officer. This
                    hearing can be conducted by telephone or in person. The next level of
                    appeal is review of the case by an Administrative Law Judge.6
                    Vulnerabilities in the Current Medicare Enrollment Process in South Florida
                    According to NSC supplier enrollment data, Miami-Dade County has
                    the highest concentration of suppliers per Medicare beneficiary of any
                    county in the nation. Broward and Palm Beach Counties also have high
                    concentrations of suppliers. As a result of allegations in Miami-Dade
                    and Broward Counties, NSC reported that, during the last two quarters
                    of 2005, Florida led the nation for allegations of supplier noncompliance
                    with Medicare standards.




                        6 42 CFR § 405.874; also available online at:
                    http://www.palmettogba.com/palmetto/providers.nsf/$$ViewTemplate+for+Docs?ReadForm
                    &Providers/National+Supplier+Clearinghouse/Supplier+Enrollment/Appeals+Process.
                    Accessed on January 30, 2006.



 OEI-03-07-00150    S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   3
I N T R O D        U C T             I O N


                    Once a DMEPOS supplier has received an enrollment or reenrollment
                    site visit, the supplier generally is not visited again outside the 3-year
                    cycle. Though an unannounced, out-of-cycle site visit may occur if NSC
                    becomes aware that a supplier may be in violation of one or more
                    Medicare standards, typically DMEPOS suppliers are only visited at the
                    end of their 3-year reenrollment period.

                    Out-of-cycle site visits have proven to be effective in detecting
                    noncompliant suppliers. According to NSC, in the first quarter of 2006
                    it initiated a project to conduct out-of-cycle visits to approximately 500
                    DMEPOS suppliers in Miami-Dade, Broward, and Palm Beach
                    Counties. As a result of this project, NSC revoked the Medicare billing
                    numbers for 286 of these suppliers. Many of these suppliers’ facilities
                    were found to be vacant or occupied by some other business. This
                    suggests that DMEPOS suppliers may take advantage of the standard
                    site visit cycle by establishing businesses that are not maintained or
                    staffed after NSC conducts the initial or reenrollment site visit.
                    Related Studies
                    A September 2005 Government Accountability Office (GAO) report
                    (GAO-05-656) examined the procedures NSC uses to ensure that
                    DMEPOS suppliers are legitimate businesses and are qualified to bill
                    Medicare. GAO found that the screening procedures used by NSC,
                    including on-site visits and checking State licensure, were insufficient to
                    prevent illegitimate businesses from enrolling in the Medicare program.
                    GAO estimated that NSC did not conduct 605 required on-site visits to
                    suppliers in Florida, Illinois, Louisiana, and Texas. GAO made several
                    recommendations, including establishing a minimum number of
                    out-of-cycle, on-site inspections that NSC must perform each year as
                    part of its contract. CMS generally concurred with the report’s findings
                    and stated that, beginning in fiscal year 2006, the requirement to
                    perform out-of-cycle, on-site visits would be added to NSC’s contractual
                    duties.

                    In 1997, OIG issued the report “Medical Equipment Suppliers:
                    Assuring Legitimacy” (OEI-04-96-00240). In this study, OIG examined
                    Medicare supplier enrollment practices in 12 large metropolitan areas
                    in 5 States, including Florida. Based on unannounced site visits, the
                    study concluded that the enrollment process was unreliable for
                    detecting unethical and improper practices of suppliers, particularly
                    because supplier enrollment at that time did not involve on-site
                    verification of supplier application data. One of the options OIG


 OEI-03-07-00150    S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   4
I N T R O D        U C T             I O N


                    recommended for ensuring the integrity of Medicare suppliers was for
                    CMS to conduct on-site visits at applicants’ physical locations. CMS
                    concurred, but stated that limited resources allowed on-site visits to be
                    conducted only in high-risk areas.

                    In 2001, OIG issued a follow-up report (OEI-04-99-00670) that assessed
                    how well DMEPOS suppliers were meeting the Medicare standards.
                    OIG found that the expansion of the CMS site inspection program
                    improved supplier compliance with the Medicare standards. OIG made
                    several recommendations to increase the compliance rates further, such
                    as instituting random, unannounced site visits. CMS concurred with
                    the recommendations.


                    METHODOLOGY
                    Scope of Review
                    We focused on three supplier standards that could be verified quickly
                    through direct observation and desk review. These three standards
                    (7, 8, and 9 in Appendix A) include five specific requirements:
                         •	 The supplier must maintain a physical facility (Standard 7).

                         •	 The facility must be accessible during business hours (Standard 8).

                         •	 The facility must have a visible sign (Standard 8).

                         •	 The supplier’s hours of operation must be posted (Standard 8).

                         •	 The supplier must maintain a primary business telephone listed
                                under the name of the business (Standard 9).

                    Our review focused on 1,581 suppliers in the South Florida area,
                    specifically in Miami-Dade, Broward, and Palm Beach Counties. We
                    identified all active DMEPOS suppliers in these counties using NSC
                    enrollment data as of October 16, 2006. NSC enrollment data are
                    updated each day as additions and changes are received from suppliers.
                    From this list, we selected 10 primary specialty supplier types for
                    inclusion in our review. Appendix B lists the primary specialty types.
                    We excluded large chain suppliers (25 stores or more) from our review.
                    We also excluded suppliers under investigation by OIG and suppliers
                    that had, or were in the process of having, their Medicare billing
                    numbers revoked by NSC. This resulted in a total of 1,581 suppliers for
                    our review. The number of suppliers located in each county is presented
                    in Appendix C.



 OEI-03-07-00150    S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   5
I N T R O D        U C T             I O N


                    Data Collection and Analysis
                    We conducted unannounced site visits to all 1,581 suppliers to
                    determine whether suppliers were in compliance with the
                    4 requirements related to Standards 7 and 8. We recorded all
                    observations using a standardized protocol. OIG staff, along with
                    CMS and its contractor staff, conducted all site visits in late 2006.

                    Working with CMS, we developed parameters to define supplier
                    compliance with the requirements to maintain a physical facility and be
                    accessible to beneficiaries during business hours:
                         •	 We determined that a supplier did not maintain a physical facility
                                if the supplier did not exist at the business address on file with
                                NSC.
                         •	 We determined that a supplier was not accessible during
                                business hours if the supplier was closed (i.e., the door was
                                locked) or not staffed during site visits that occurred on two
                                different weekdays (Monday through Friday). The first visit
                                was conducted during reasonable business hours (9 a.m. to
                                5 p.m.) and the second visit was conducted during the supplier’s
                                posted business hours or during reasonable business hours
                                (9 a.m. to 5 p.m.) if no business hours were posted.
                         •	 We also determined that a supplier was not accessible during
                                business hours if the supplier (1) was closed (i.e., the door was
                                locked) during the first site visit; (2) had posted a sign indicating
                                that the supplier was “out on delivery” or “out to lunch” during
                                the second site visit; and (3) was closed, not staffed, or had
                                posted the same sign during a third site visit. The second and
                                third visits were conducted during the supplier’s posted business
                                hours or during reasonable business hours (9 a.m. to 5 p.m.) if
                                no business hours were posted.

                    We aggregated site visit results to determine the number of suppliers
                    that had visible signs and hours of operation posted. We also
                    reviewed and categorized site reviewers’ observations about the
                    physical facilities.

                    In addition to site visits, we conducted Internet searches to determine
                    whether each supplier had a listed telephone number as specified in
                    Standard 9. The searches included WhitePages.com,
                    YellowPages.com, and SuperPages.com. We used the supplier’s



 OEI-03-07-00150    S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   6
I N T R O D        U C T             I O N


                    business name or alias (i.e., an alternate name the supplier uses to
                    conduct business) to conduct the Internet searches.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-07-00150    S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   7
Δ      F I N D I N G S

Thirty-one percent of suppliers in three South              A total of 491 of 1,581 DMEPOS
 Florida counties did not maintain a physical               suppliers (31 percent) failed to
  facility or were not open and staffed during              maintain a physical facility or were
                                                            not open and staffed during our
                       unannounced site visits
                                                            unannounced site visits to
                      suppliers’ locations in 3 South Florida counties. These suppliers did not
                      maintain appropriate physical facilities or their facilities were not
                      accessible to beneficiaries during reasonable or posted business hours
                      on at least two visits. As of November 30, 2006, the 491 suppliers billed
                      Medicare for almost $237 million and Medicare allowed over $97 million
                      for services provided between January 1 and November 30, 2006.

                      Of the 491 suppliers, 394 were located in Miami-Dade County, 59 were
                      located in Broward County, and 38 were located in Palm Beach County.
                      Suppliers located in Miami-Dade County represented 64 percent of the
                      suppliers we visited, but accounted for 80 percent of suppliers that did
                      not maintain physical facilities or were not accessible during business
                      hours. Appendix C provides the number of suppliers visited in each
                      county.

                      “Medical supply company—other” was the primary business specialty
                      listed in NSC enrollment data for the majority of suppliers that did not
                      maintain physical facilities or were not accessible during reasonable
                      business hours (413 of 491). Suppliers with this primary specialty
                      accounted for 53 percent of all South Florida suppliers in our review,
                      but accounted for 84 percent of suppliers that did not maintain physical
                      facilities or were not open and staffed during business hours. The
                      remaining specialty types for suppliers are provided in Appendix B.
                      Six percent of suppliers (98 of 1,581) did not maintain physical facilities
                      Medicare requires all medical equipment suppliers to maintain “a
                      physical facility on an appropriate site.” However, 98 of the suppliers
                      we visited did not maintain physical facilities. Instead of finding
                      operational facilities, site reviewers found vacant facilities or facilities
                      in which another type of business was operating.
                      Twenty-five percent of suppliers (393 of 1,581) were not accessible during
                      reasonable business hours
                      One-quarter of the 1,581 medical equipment suppliers we visited were
                      not accessible during reasonable or posted business hours. When
                      business hours were not posted, we considered reasonable business
                      hours to be between 9 a.m. and 5 p.m. on weekdays.



    OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   8
        F   I N D I N G        S


                              Of the 393 suppliers, 385 were closed during site visits on a minimum of
                              two weekdays during reasonable or posted business hours. Eight
                              suppliers were open but not staffed during a minimum of two site visits.
                              These suppliers’ doors were unlocked, but site reviewers saw no one in
                              the facilities.

                              Site reviewers visited some locations housing multiple suppliers that
                              were not open and staffed during posted or reasonable business hours.
                              At one building, 15 suppliers were not open and staffed. On the same
                              street, another building housed nine suppliers that were not open and
                              staffed. Other locations often had two to six suppliers that were not
                              open and staffed.

                              Some of these 393 suppliers also failed to meet 1 or more of 3 additional
                              requirements. Site visits revealed that 41 of the 393 suppliers did not
                              meet the requirement that suppliers’ hours of operation be posted.
                              Based on signs at their facilities, all suppliers with posted business
                              hours were open an average of 35 hours per week. However, those
                              found to be closed or open and not staffed posted business hours that
                              averaged only 26 hours per week. Ten of these 393 suppliers also failed
                              to meet the requirement that visible signs be posted at their facilities.
                              Finally, Internet searches revealed that 14 of the 393 suppliers did not
                              have listed telephone numbers.

Another 14 percent of suppliers were open and staffed                  Fourteen percent of suppliers (216
      but did not meet at least one of three additional                of 1,581) were open and staffed
                                                                       but did not meet at least 1 of the
          requirements for the standards we reviewed
                                                                       3 remaining requirements we
                                                                       reviewed (having posted hours of
                              operation, a visible sign, and a listed telephone number). Two hundred
                              and six of these suppliers did not comply with 1 of these requirements
                              and 10 did not comply with 2 or more of these requirements.

                              Of the 216 suppliers that were open and staffed but failed to meet 1 or
                              more of three additional requirements in our review, 204 suppliers did
                              not have posted hours of operation. Thirteen suppliers did not meet the
                              requirement of having a visible sign, and 10 suppliers did not have
                              listed telephone numbers.

                              The remaining 55 percent of suppliers we visited (874 of 1,581) met all
                              of the 5 requirements included in our review.




            OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   9
Δ   R E C O M M E N D A T I O N                                                                    





                  Based on unannounced site visits to 1,581 Medicare DMEPOS suppliers
                  in 3 counties in South Florida, we identified 491 suppliers (31 percent)
                  that did not maintain physical facilities or were not accessible during
                  reasonable business hours. We referred these suppliers to CMS so that
                  it could consider potential revocation of the suppliers’ Medicare billing
                  numbers.

                  An additional 14 percent of suppliers, while maintaining facilities that
                  were open and staffed, did not meet at least 1 additional requirement
                  from the Medicare standards that we reviewed.
                  Because nearly half of the suppliers we visited were not in compliance
                  with the Medicare supplier standards we reviewed, our findings
                  warrant further attention by CMS to protect the integrity of the
                  Medicare DMEPOS benefit. Therefore, we recommend that CMS:
                  Strengthen the Medicare DMEPOS Supplier Enrollment Process and
                  Ensure That Suppliers Meet Medicare Supplier Standards
                  Options to implement this recommendation could include:

                       •	 conducting more unannounced site visits to suppliers;

                       •	 implementing an enhanced review of all new enrollment

                              applications by DMEPOS suppliers in South Florida; 

                       •	 prioritizing processing reenrollment applications for current

                              suppliers over processing new supplier applications; 

                       •	 performing more rigorous background checks of applicants;

                       •	 assessing the fraud risk of suppliers and targeting monitoring and
                              enforcement on high-risk suppliers;
                       •	 increasing prepayment review of DMEPOS claims;

                       •	 requiring all DMEPOS suppliers to post a surety bond;

                       •	 implementing a competitive bidding acquisition program for
                              DMEPOS within high-vulnerability areas; if a competitive bidding
                              program is implemented in these areas, the number of suppliers
                              should be limited to those that demonstrate compliance with
                              Medicare standards and that can provide the best value to the
                              Medicare program and its beneficiaries;




OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   10
R 	E C O      M M E N D A T                          I O N


                        •	 requiring suppliers in areas particularly vulnerable to fraud and
                               abuse to reenroll with NSC more frequently than every 3 years;
                        •	 strengthening the Medicare supplier standards by establishing a
                               minimum number of hours of operation required for each supplier
                               and establishing minimum inventory requirements for product
                               and service types provided by a supplier; and
                        •	 deactivating the Medicare billing numbers of DMEPOS suppliers
                               that have been inactive for a 90-day period.


                   AGENCY COMMENTS
                   CMS agreed with or will consider the options we recommended for
                   strengthening the Medicare DMEPOS supplier enrollment process and
                   ensuring that suppliers meet Medicare supplier standards. Specifically,
                   CMS is revisiting the NSC’s contract requirements to increase the
                   number of unannounced supplier site visits; considering targeted
                   background checks of supplier applicants; incorporating targeted
                   monitoring and enforcement for high-risk suppliers into future contract
                   solicitations; drafting a proposed regulation requiring suppliers to post
                   surety bonds; requiring suppliers to become accredited as meeting
                   DMEPOS quality standards; considering proposing more general
                   minimum inventory and business hours requirements in a future
                   rulemaking document; and developing a proposal to revise deactivation
                   requirements for inactive Medicare billing numbers. CMS has already
                   begun conducting enhanced reviews of new supplier applicants and
                   prioritizing the processing of reenrollment applications over new
                   supplier applications in South Florida and other high vulnerability
                   areas.

                   CMS stated that it appreciated working collaboratively with NSC and
                   the Office of Inspector General (OIG) to conduct unannounced site visits
                   in South Florida to determine compliance with Medicare supplier
                   enrollment standards. CMS believes that projects such as the one
                   conducted in South Florida are both worthwhile and cost-effective, and
                   states that the results of the project show there can be added value from
                   quickly applying an abbreviated protocol to a large number of suppliers
                   in a short period of time. CMS further noted that it believes the data
                   collection protocol used for the South Florida supplier site visits was
                   valuable, but provided less information than the NSC-established site
                   visit protocol to support supplier number revocation decisions when



 OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   11
R   E C O        M M E N D A T                          I O N


                      suppliers submit appeals. The full text of CMS’s comments is provided
                      in Appendix D.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      Previous work conducted by OIG has demonstrated that the Medicare
                      DMEPOS benefit is highly vulnerable to fraud and abuse. These
                      vulnerabilities can only be reduced by ensuring that Medicare does
                      business with legitimate DMEPOS suppliers.

                      The findings of this review detail the business practices of more than
                      1,500 DMEPOS suppliers that were the subject of our review during
                      visits to suppliers. We found that 45 percent of the suppliers we visited
                      did not meet at least one of the five requirements that we reviewed,
                      raising substantial concerns as to whether DMEPOS suppliers in South
                      Florida are in compliance with the most basic of supplier standards.

                      As CMS states in its comments, we worked closely with CMS and NSC
                      staff in developing the protocol for this study. This joint effort allowed
                      for unannounced site visits to a large population of DMEPOS suppliers
                      during a several week period. Visiting a large number of suppliers
                      without forewarning in a short period of time was crucial to ensuring
                      that suppliers were not alerted to our efforts.
                      Given the overwhelming evidence of noncompliance with supplier
                      standards in South Florida, it is essential that our recommendations be
                      promptly implemented to ensure the integrity of the Medicare program
                      and to protect beneficiaries from potentially unscrupulous suppliers.




    OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   12
 Δ        A P P E N D I X                                 A



Medicare DMEPOS Supplier Standards

(1) Operates its business and furnishes Medicare-covered items in compliance with all
applicable Federal and State licensure and regulatory requirements;

(2) Has not made, or caused to be made, any false statement or misrepresentation of a
material fact on its application for billing privileges. (The supplier must provide complete and
accurate information in response to questions on its application for billing privileges. The
supplier must report to CMS any changes in information supplied on the application within
30 days of the change.);

(3) Must have the application for billing privileges signed by an individual whose signature
binds a supplier;

(4) Fills orders, fabricates, or fits items from its own inventory or by contracting with other
companies for the purchase of items necessary to fill the order. If it does, it must provide,
upon request, copies of contracts or other documentation showing compliance with this
standard. A supplier may not contract with any entity that is currently excluded from the
Medicare program, any State health care programs, or from any other Federal Government
Executive Branch procurement or nonprocurement program or activity;

(5) Advises beneficiaries that they may either rent or purchase inexpensive or routinely
purchased durable medical equipment, and of the purchase option for capped rental durable
medical equipment, as defined in Sec. 414.220(a) of this subchapter. (The supplier must
provide, upon request, documentation that it has provided beneficiaries with this information,
in the form of copies of letters, logs, or signed notices.);

(6) Honors all warranties expressed and implied under applicable State law. A supplier must
not charge the beneficiary or the Medicare program for the repair or replacement of
Medicare-covered items or for services covered under warranty. This standard applies to all
purchased and rented items, including capped rental items, as described in Sec. 414.229 of
this subchapter. The supplier must provide, upon request, documentation that it has
provided beneficiaries with information about Medicare-covered items covered under
warranty, in the form of copies of letters, logs, or signed notices;

(7) Maintains a physical facility on an appropriate site. The physical facility must contain
space for storing business records including the supplier's delivery, maintenance, and
beneficiary communication records. For purposes of this standard, a post office box or
commercial mailbox is not considered a physical facility. In the case of a multisite supplier,
records may be maintained at a centralized location;

(8) Permits CMS, or its agents to conduct on-site inspections to ascertain supplier compliance
with the requirements of this section. The supplier location must be accessible during
reasonable business hours to beneficiaries and to CMS, and must maintain a visible sign and
posted hours of operation;



      OEI-03-07-00150    S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   13
   A   P   P E N D       I X ~            A


(9) Maintains a primary business telephone listed under the name of the business locally or
toll-free for beneficiaries. The supplier must furnish information to beneficiaries at the time
of delivery of items on how the beneficiary can contact the supplier by telephone. The
exclusive use of a beeper number, answering service, pager, facsimile machine, car phone, or
an answering machine may not be used as the primary business telephone for purposes of this
regulation;

(10) Has a comprehensive liability insurance policy in the amount of at least $300,000 that
covers both the supplier's place of business and all customers and employees of the supplier.
In the case of a supplier that manufactures its own items, this insurance must also cover
product liability and completed operations. Failure to maintain required insurance at all
times will result in revocation of the supplier’s billing privileges retroactive to the date the
insurance lapsed;

(11) Must agree not to contact a beneficiary by telephone when supplying a Medicare-covered
item unless one of the following applies:
(i) The individual has given written permission to the supplier to contact them by telephone
concerning the furnishing of a Medicare-covered item that is to be rented or purchased.
(ii) The supplier has furnished a Medicare-covered item to the individual and the supplier is
contacting the individual to coordinate the delivery of the item.
(iii) If the contact concerns the furnishing of a Medicare-covered item other than a covered
item already furnished to the individual, the supplier has furnished at least one covered item
to the individual during the 15-month period preceding the date on which the supplier makes
such contact.

(12) Must be responsible for the delivery of Medicare covered items to beneficiaries and
maintain proof of delivery. (The supplier must document that it or another qualified party
has at an appropriate time, provided beneficiaries with necessary information and
instructions on how to use Medicare-covered items safely and effectively);

(13) Must answer questions and respond to complaints a beneficiary has about the
Medicare-covered item that was sold or rented. A supplier must refer beneficiaries with
Medicare questions to the appropriate carrier. A supplier must maintain documentation of
contacts with beneficiaries regarding complaints or questions;

(14) Must maintain and replace at no charge or repair directly, or through a service contract
with another company, Medicare-covered items it has rented to beneficiaries. The item must
function as required and intended after being repaired or replaced;

(15) Must accept returns from beneficiaries of substandard (less than full quality for the
particular item or unsuitable items, inappropriate for the beneficiary at the time it was fitted
and rented or sold);

(16) Must disclose these supplier standards to each beneficiary to whom it supplies a
Medicare-covered item;

(17) Must comply with the disclosure provisions in Sec. 420.206 of this subchapter;



       OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   14
   A   P   P E N D       I X ~            A


(18) Must not convey or reassign a supplier number;

(19) Must have a complaint resolution protocol to address beneficiary complaints that relate to
supplier standards in paragraph (c) of this section and keep written complaints, related
correspondence and any notes of actions taken in response to written and oral complaints.
Failure to maintain such information may be considered evidence that supplier standards
have not been met. (This information must be kept at its physical facility and made available
to CMS, upon request.);

(20) Must maintain the following information on all written and oral beneficiary complaints,
including telephone complaints, it receives:
(i) The name, address, telephone number, and health insurance claim number of the
beneficiary.
(ii) A summary of the complaint; the date it was received; the name of the person receiving the
complaint, and a summary of actions taken to resolve the complaint.
(iii) If an investigation was not conducted, the name of the person making the decision and the
reason for the decision.

(21) Provides to CMS, upon request, any information required by the Medicare statute and
implementing regulations.

The following items have recently been added as Medicare suppliers standards in the Federal
Register notice dated August 18, 2006. However, CMS has not set a deadline for DMEPOS
suppliers to become accredited in order to retain/obtain a billing number. Therefore, at the
time of our review, suppliers needed to comply with only 21 standards to enroll in the
Medicare program.

(22) All suppliers of DMEPOS and other items and services must be accredited by a
CMS-approved accreditation organization in order to receive and retain a supplier billing
number. The accreditation must indicate the specific products and services for which the
supplier is accredited in order for the supplier to receive payment for those specific products
and services.

(23) All DMEPOS suppliers must notify their accreditation organization when a new
DMEPOS location is opened. The accreditation organization may accredit the new supplier
location for 3 months after it is operational without requiring a new site visit.

(24) All DMEPOS supplier locations, whether owned or subcontracted, must meet the
DMEPOS quality standards and be separately accredited in order to bill Medicare. An
accredited supplier may be denied enrollment or their enrollment may be revoked, if CMS
determines that they are not in compliance with the DMEPOS quality standards.

(25) All DMEPOS suppliers must disclose upon enrollment all products and services,
including the addition of new product lines for which they are seeking accreditation. If a new
product line is added after enrollment, the DMEPOS supplier will be responsible for notifying
the accrediting body of the new product so that the DMEPOS supplier can be re-surveyed and
accredited for these new products.



       OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   15
         Δ           A P P E N D I X                                       B             





      Primary Specialty Types for Suppliers Visited in South Florida


                                                                                                                                     Number of                Percentage of
                                                                                                                             suppliers that did               suppliers that
                                                                  Number of                  Percentage of                       not maintain               did not maintain
     Primary specialty                                                                                   1
                                                                   suppliers                    suppliers                    physical facilities           physical facilities
                                                                                                                                   or were not                   or were not
                                                                                                                                                                             1
                                                                                                                                    accessible                   accessible



     Medical Supply Company—Other                                             836                           52.88                                    413               84.11

     Pharmacy                                                                  410                          25.93                                     41                 8.35

     Podiatry                                                                  234                          14.80                                     21                 4.28

     Medical Supply Company With
                                                                                 34                           2.15                                     8                 1.63
     Respiratory Therapist
     Medical Supply Company—Certified
                                                                                 18                           1.14                                     4                 0.81
     Orthotist
     Independently Practicing Occupational
                                                                                 17                           1.08                                     1                 0.20
     Therapist
     Independently Practicing Physical
                                                                                 14                           0.89                                     2                 0.41
     Therapist
     Medical Supply Company—Certified
                                                                                   9                          0.57                                     0                 0.00
     Prosthetist
     Medical Supply Company—Certified
                                                                                   6                          0.38                                     0                 0.00
     Orthotist/ Prosthetist

     Unknown Physician Specialty                                                   3                          0.19                                    1                  0.20

        Total                                                              1,581                               100                                   491                 100
Source: Office of Inspector General analysis of suppliers’ primary specialty types listed in October 16, 2006, National Supplier Clearinghouse enrollment
data.
1
    Percentages are rounded.




                OEI-03-07-00150           S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S                         16
         Δ           A P P E N D I X                                       C             





      County Locations for Suppliers Visited in South Florida


                                                                                                                                     Number of                Percentage of
                                                                                                                             suppliers that did               suppliers that
                                                                  Number of                  Percentage of                       not maintain               did not maintain
     County                                                                                              1
                                                                   suppliers                    suppliers                    physical facilities           physical facilities
                                                                                                                                   or were not                   or were not
                                                                                                                                                                             1
                                                                                                                                    accessible                   accessible



     Miami-Dade                                                            1,013                            64.07                                    394               80.24

     Broward                                                                   311                          19.67                                     59               12.02

     Palm Beach                                                                257                          16.26                                     38                 7.74

        Total                                                              1,581                               100                                   491                 100
Source: Office of Inspector General analysis of suppliers’ addresses listed in October 16, 2006, National Supplier Clearinghouse enrollment data.
1
    Percentages are rounded.




                OEI-03-07-00150           S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S                         17
Δ   A P P E N D I X                                D


     Agency Comments




OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   18
A   P   P E N D       I X ~            D




    OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   19
A   P   P E N D       I X ~            D




    OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   20
A   P   P E N D       I X ~            D




    OEI-03-07-00150   S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   21
A   C K N O           W L     E D G                M E N T                      S
Δ       A C K N O W L E D G M E N T S                                                                              




                        This report was prepared under the direction of Robert A. Vito, Regional
                        Inspector General for Evaluation and Inspections in the Philadelphia
                        regional office, and Linda M. Ragone, Deputy Regional Inspector
                        General.

                        Tanaz Dutia and Amy Sernyak served as the team leaders for this
                        study. Other principal Office of Evaluation and Inspections staff from
                        the Philadelphia regional office who contributed to this report include
                        Jessica Demko, Diane Epstein, Cynthia Hansford, Maria Johnson,
                        Conswelia McCourt, Emily Multari, Roman Strakovsky, and Stephanie
                        Yeager; other regional and central office staff who contributed include
                        Suzanne Bailey, Mark Biagioni, Diane Caves, Peggy Daniel, Jaime
                        Durley, Deborah Harvey, Michael Henry, Scott Hutchison, Scott
                        Manley, Gerius Patterson, Steven Zerebecki, and Mina Zadeh.

                        We also would like to acknowledge the contributions of staff from the
                        Office of Inspector General’s Office of Audit Services and Office of
                        Investigations, the Centers for Medicare & Medicaid Services, and the
                        National Supplier Clearinghouse.




    OEI-03-07-00150     S O U T H F L O R I D A S U P P L I E R S ’ C O M P L I A N C E W I T H M E D I C A R E S TA N D A R D S   22
